VISA® PLATINUM Disclosure Information

Wings Financial Credit Union

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

0.00% Introductory rate is good for the first 12 months from the date that your new credit card account is opened.
After that, your APR will range from 8.15% to 18.00% based on your creditworthiness. This APR will vary with the
market based on the Prime Rate.
APR for Balance Transfers
0.00% Introductory rate is good for the first 12 months from the date that your new credit card account is opened.
After that, your APR will range from 8.15% to 18.00% based on your creditworthiness. This APR will vary with the
market based on the Prime Rate.
APR for Cash Advances
8.15% to 18.00% The APR will vary with the market based on the Prime Rate.
Paying Interest
Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest on purchases
if you pay your entire balance by the due date each month. We will begin charging interest on cash advances and
balance transfers from the posting date.
To learn more about factors to consider when applying for or using a credit card, visit the website of the
Credit Card Tips from the Consumer
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.
Financial Protection Bureau
Transaction Fees
Penalty Fees:
Late Payment
Up to $27
Cash Advance
Either $10 or 2% of the amount of each cash advance, whichever is greater.
Returned Payment Up to $27
How We Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the Wings Credit Card Agreement and Truth-In-Lending Disclosure.
Rates are effective as of 7/1/20 and are subject to change. Call 1 800 692-2274 for current rate information.

M-131761

